<html>
<title> - ASIA'S DIPLOMATIC AND SECURITY STRUCTURE: PLANNING U.S. ENGAGEMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   ASIA'S DIPLOMATIC AND SECURITY STRUCTURE: PLANNING U.S. ENGAGEMENT

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 23, 2018

                               __________

                           Serial No. 115-152

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/

                               
                                 
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-177 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>                              
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                              ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Amy Searight, Ph.D., senior adviser and director, Southeast Asia 
  Program, Center for Strategic and International Studies........     7
Aparna Pande, Ph.D., director, Initiative on the Future of India 
  and South Asia, The Hudson Institute...........................    18
Michael D. Swaine, Ph.D., senior fellow, Asia Program, Carnegie 
  Endowment for International Peace..............................    30

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     3
Amy Searight, Ph.D.: Prepared statement..........................    10
Aparna Pande, Ph.D.: Prepared statement..........................    20
Michael D. Swaine, Ph.D.: Prepared statement.....................    33

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53
Questions submitted for the record by the Honorable Ann Wagner, a 
  Representative in Congress from the State of Missouri, and 
  written responses from:
  Amy Searight, Ph.D.............................................    54
  Aparna Pande, Ph.D.............................................    56
  Michael D. Swaine, Ph.D........................................    57

 
   ASIA'S DIPLOMATIC AND SECURITY STRUCTURE: PLANNING U.S. ENGAGEMENT

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room 2200, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. Let the hearing come to order.
    Good afternoon, and thank you for being here today, and 
sorry for the delay. Sometimes that voting schedule does get in 
the way.
    Members present will be permitted to submit written 
statements to be included in the official hearing record. 
Without objection, the hearing record will remain open for 5 
calendar days to allow statements, questions, and extraneous 
materials for the record subject to length limitations and the 
rules. And the witnesses' written statements will be entered 
into the hearing.
    As my colleagues on the Asia-Pacific Subcommittee, the 
world's strategic and economic gravity is shifting eastward. 
Asia has already become the essential arena where the United 
States must compete to advance our economic interests and 
defend the American-led order that has underwritten global 
security and prosperity for decades.
    Moreover, we need a game plan. The United States won't be a 
credible competitor in this high-stakes arena without a long-
term national strategy, and that is one of the goals we are 
focusing on in this committee and the Foreign Affairs Committee 
is to help map a long-term strategy that doesn't change with 
each administration as easily as we have seen in the past so 
that we have a long-term vision.
    Our main adversary in this competition, the People's 
Republic of China, is the master of generational strategies. 
When Xi Jinping came to power in 2012, China's Communist Party 
laid down two centenary goals, objectives for the 100th 
anniversary of the party in 2021 and the 100th anniversary of 
the PRC in 2049. Xi has followed this roadmap ever since.
    It has been nearly 500 days since President Trump's 
inauguration. Over the last several months, his administration 
has begun to lay out a body of work containing a long-term 
national strategy for the United States with significant 
attention to the Asia-Pacific region. This committee has a role 
to play in the strategic planning process, as I said earlier, 
which is why we have convened today's hearing.
    In December, the White House released a new U.S. National 
Security Strategy that reflects a return to great power 
competition, acknowledging a U.S-China relationship that is 
fundamentally competitive. Taking up a more honest vision of 
China's regional global role, the National Security Strategy 
casts aside decades of wishful thinking. It says policies based 
on the assumption that engagement with rivals and their 
inclusion in the international institutions in global commerce 
would turn them into benign actors and trustworthy partners. 
Turned out to be false.
    This view is an emerging consensus in and outside of 
government and across partisan lines. And I also would like to 
add that it is across different nations, because we are seeing 
this as other countries come in and talk to us, that they are 
saying the same thing. It will likely define Asia for years to 
come.
    The administration has begun to lay out a free and open 
Indo-Pacific strategy specific to Asia, which emphasizes the 
strategic interconnection of the Western Pacific and the Indian 
Ocean. The strategy promotes nations' freedom from coercion and 
the ability to defend their sovereignty and freedom internally 
in terms of good governance, human rights, and fundamental 
liberties. It also promotes openness, freedom of the sea, 
peaceful dispute resolution, and open trade in investments.
    These strategies go a long way toward defining a structure 
for U.S. engagement, a framework that our diplomats and the 
Armed Forces will operate within to advance not just U.S. 
national interests but those of our regional partners, and, you 
know, the alliances that we have. You know, a lot of people, 
you know, they think we have pivoted away from the Asia 
Pacific. Nothing could be further from the truth.
    But this work is far from over. There have been scant 
details on how the executive branch will operationalize its 
strategy for Asia. It is still unclear what role emerging 
mechanisms like the Quad will play in our Indo-Pacific 
strategy. Questions remain about how the U.S. strategy will 
integrate with those of our close partners like India, which is 
a major pillar of the Indo-Pacific vision the administration 
has laid down. Some experts are concerned that such a strategy 
would marginalize ASEAN, which has always been a core component 
of U.S. engagement in Asia, and it will continue into the 
future.
    Today, with the help of our expert panel, we will work 
toward some of these answers. We will discuss these strategies 
and their implication from an oversight perspective, and to 
inform our upcoming East and South Asia budget hearing with 
administration officials.
    I thank the witnesses for being here today, and again 
apologize for the delay. And I now turn to our ranking member, 
Mr. Brad Sherman, from California.
    [The prepared statement of Mr. Yoho follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
   
                              ----------                              

    Mr. Sherman. This is a broad hearing with many things to 
discuss. I will mention a few.
    As to democracy and human rights, we see strong democracies 
in Japan, Taiwan, Mongolia, South Korea, and India, yet 
Southeast Asia is lagging. In general, it has an average score 
from Freedom House of 4.8, halfway between the 1 and the 7, the 
1 being the best. Burma's transition to democracy has now 
morphed into this terrible ethnic cleansing of the Rohingya 
with 600,000 refugees fleeing into Bangladesh. And China, 
hardly a democracy, oppresses its Uighur and Tibetan 
minorities, but more to the point--but even perhaps more 
significant--its government has no theoretical basis for its 
own legitimacy.
    Democracy, you know, can be accepted as legitimate. 
Theocracy or monarchy, where there is a culture that accepts 
that, might explain why they are running things. Communism was 
a theology perhaps or a theocracy, but Xi is not the vanguard 
of the proletariat. So the only answer they have to the 
question as to why they are running things is because they have 
provided a high level of economic growth, and at some point 
they won't. And we will test to see whether the Chinese people 
accept the Communist Party that isn't a Communist Party but is 
in power because they are doing such a great job at running the 
economy when they are not doing a great job at running the 
economy. We will see what happens.
    We see with India some $15 billion of arms sales, and naval 
exercises. We see India developing its ties with Southeast 
Asia, but only 2 or 3 percent of Southeast Asia's trade is with 
India. And it would be good if India presses Southeast Asia to 
move in the direction of democracy, we are reviving the 
quadrilateral group involving the U.S., Japan, Australia, and 
India. And where it is conducting maritime patrols or where it 
is working for development and democracy, this could be a 
useful working group.
    As to trade, we have a larger trade deficit with China in 
2017 than 2016. We have conducted talks in which the other side 
has refused to commit itself to any quantifiable reduction in 
the trade deficit, and we have caved. There isn't a term for 
this that Beijing will understand. It is called paper tiger, 
and it describes an approach where you scream about a trade 
deficit and then settle for no change, except that we eliminate 
our sanctions or roll them back with regard to ZTE. So that on 
the one hand, the President says he is going to create a new 
coalition to bring Iran to its knees and force them to make 
concessions that President Obama couldn't even dream of or 
chose not to. And at the same time the message goes out to 
companies around the world we don't really impose sanctions on 
big companies, we will pick a few small ones now and then. And 
so Iran will be deprived of a few small trading partners.
    There is one area where I think we need a more dovish 
approach, and that is the so-called islands. They are really 
islets, some of them rocks, off the coast of China, sometimes 
hundreds of miles off the coast of China. They are located off 
the shores of the most populated continent, yet for millennia, 
no one has ever chosen to live on them. That is how valuable 
they are.
    It is said that whoever controlled these islets would stand 
astride major trade routes with trillions of trade. All of that 
trillions is in and out of Chinese ports, so if China can 
control these islets, they could blockade their own ports. 
There are also some oil tankers that get close to some of these 
islets that could easily change their route and be far from 
these islets. So let us hope that neither in Beijing nor in 
Washington is a dispute over these islets a reason to fan the 
flames of war or fan the flames of increased military 
expenditure. We should work something out without allowing 
those in both countries that want to raise tensions to justify 
military expenditures to be successful.
    With that, I yield back.
    Mr. Yoho. Thank you.
    Do you want to have an opening statement, Dr. Bera?
    Mr. Bera. May I?
    Mr. Yoho. Yes, sir, you can.
    Mr. Bera. Thank you, Mr. Chairman.
    Obviously, a very timely hearing. And, you know, I think 
both the chairman and the ranking member touched on a number of 
issues that are of key importance to the region. I am going to 
add one more.
    When we think about some of the tensions in the South China 
Sea that continue and actually are escalating as you start to 
see the Chinese deploy missile systems on the Spratlys as they 
have had their first bomber landing on the Spratlys, and yet I 
know the administration has withdrawn their invitation to 
RIMPAC as a first step. What we can anticipate, you know, if we 
just think about how the Chinese respond, you know, if you give 
them an inch, they are going to ask for a foot, and then 
unfortunately we should have stopped them, you know, several 
years ago when it would have been less complicated.
    At this juncture, though, we have to send a strong message 
that militarization of the South China Sea, you know, claiming 
disputed territories is not acceptable, and we're going to be 
very interested, and I think in a bipartisan way, Members of 
Congress would be very supportive of the administration 
continuing to send a strong message that, you know, we have to 
keep these waterways open. We do not, you know, accept China's 
claims that this is their territory, and we have to stand in 
partnership with the nations in that region, the Philippines, 
Vietnam, and others to send that strong message and keep those 
waterways open.
    In addition, just, you know, sticking to kind of the 
maritime conversation, we are seeing that increased cooperation 
and partnership between the United States and India, and 
trilaterally or quadrilaterally with Japan, the United States, 
India, and Australia. And, you know, again, I think I speak for 
members of this committee--subcommittee as well as the full 
committee that we do think that from a strategic direction it 
is an incredibly important partnership, both bilaterally but 
also trilaterally and quadrilaterally, and certainly support 
continued movement and partnership in that direction. So I am 
very interested in hearing the witnesses' take on some of this.
    So thank you, Mr. Chairman. I will yield back.
    Mr. Yoho. Thank you, Dr. Bera. I appreciate it.
    I am going to say something I say often. You are probably 
going hear it more than once today. The world is going through 
a tectonic shift in world powers we haven't seen since World 
War II. You know, we went through a World War II powers emerge 
from that, and we are going through that today in a different 
fashion. I am 63 years old, and I have not ever seen the type 
of rivalry that we have seen. And I think what it comes down to 
is countries that have free and open thinking and democracies 
and things like that versus socialism with Chinese 
characteristics, which China is proposing or out there 
promoting. They can call it whatever they want. It is still 
communism, and we are seeing these two forces come together. 
You have got democracies and you have got that forum that Xi 
Jinping and the Communist Party is promoting.
    And so as you guys do your statements and the questions, 
that is where my focus is on how do we balance that to avoid 
conflict in the future, that we focus on economics, trade 
cultural exchanges and the advancement of all of us and not go 
into these conflicts that we have seen too much of.
    And so with that, let me introduce our speakers: Dr. Amy 
Searight, the senior adviser and director of the Southeast Asia 
Program at the Center for Strategic and International Studies; 
Dr. Pande--did I say that right, Pande?--director of the 
Initiative on the Future of India and South Asia at the Hudson 
Institute; and Dr. Michael Swaine, senior fellow in the Asia 
Program at the Carnegie Endowment for International Peace.
    I assume you all have testified before a committee before. 
You have got the little timer clock up there. Green light comes 
on when you have a lot of time. Yellow light is you start to 
slow down or finish. And then the red light. We are not 
crunched for time. I think you will be able to freely speak.
    So if you would, Dr. Searight, give your testimony. Thank 
you.

STATEMENT OF AMY SEARIGHT, PH.D., SENIOR ADVISER AND DIRECTOR, 
SOUTHEAST ASIA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL 
                            STUDIES

    Ms. Searight. Thank you, Chairman Yoho and Ranking Member 
Sherman. Thank you for inviting me to testify today on this 
really timely and important topic.
    As the United States and much of the world really 
intensifies its focus on North Korea and resolving the tensions 
there, it is important for us to maintain a broader and long-
term view on key regional dynamics that are shaping Asia's 
diplomatic and security structure in ways that will impact the 
United States and the region for years to come.
    For countries in the Indo-Pacific, and in Southeast Asia in 
particular, this is a time of strategic flux and uncertainty. 
Many in the region are wondering if we are nearing an 
inflection point where Chinese engagement and influence will 
outstrip America's traditional leadership in the region. The 
United States has tremendous reserves of hard and soft power in 
the Indo-Pacific, but there is a growing sense that U.S. 
strategy and focus is adrift at a time when China is 
demonstrating laser-sharp focus on regional priorities. So as 
you said, Mr. Chairman, the United States really needs a game 
plan, a long-term strategy for the region.
    Southeast Asia is at the crossroads of the Indo-Pacific. 
The countries in the region are critically important to the 
United States in their own right, both in strategic and 
economic terms, but more broadly, the region of Southeast Asia 
represents the chessboard on which the great power rivalry 
between the United States and China is being contested.
    China's efforts to win over friends in Southeast Asia and 
pacify ASEAN as a counterbalance to its own actions has been 
formidable. The United States has upped its game in Southeast 
Asia in recent years as well, leading to some substantial gains 
on security partnerships and capacity building, yet questions 
remain about U.S. commitment and staying power.
    For the United States to craft a compelling and enduring 
strategy for the Indo-Pacific that resonates in Southeast Asia, 
we have to first consider the key priorities and concerns of 
countries in the region. And there are three I want to point 
to.
    The first is their interest in managing great power 
rivalry. As the strategic environment of Southeast Asia and the 
broader Indo-Pacific grows increasingly contested, countries 
are seeking ways to both engage and hedge against closer ties 
with China, while not being forced to choose between China and 
the United States.
    The second priority that we have to keep in mind is that in 
Southeast Asia economics remains paramount. For the governing 
elites of Southeast Asia, economics is the foundation of 
security. Whereas the United States has traditionally led 
regional efforts to foster economic openness and integration 
that has been critical to the region's economic success for 
decades, the U.S. withdrawal from the Trans-Pacific Partnership 
and the lack of a viable economic engagement strategy to 
replace it has created a strategic void at a time when China 
has been ramping up its highly ambitious Belt and Road 
Initiative.
    The third priority for the region is ASEAN centrality. 
ASEAN has been the central driver of regional cooperation and 
stability among its Southeast Asia member nations for over half 
a century, and has developed a remarkable track record of 
averting conflict and coercion among its members and building 
trust and cooperation through dialogue and adherence to norms 
of noninterference and peaceful resolution of disputes. 
Southeast Asian countries put great stock into ASEAN and ASEAN 
centrality since they know that ASEAN-led mechanisms are the 
best way for the collective interests of these countries to be 
taken into account.
    And here I also want to make the case for why ASEAN 
centrality matters for the United States. ASEAN-led frameworks 
from the ASEAN Regional Forum to the East Asia Summit to the 
ADMM-Plus provide a venue for the United States to work with 
like-minded partners to help define issues and shape regional 
goals and expectations. But ASEAN's primary value to U.S. 
strategic interests lies in its ability to shape the normative 
environment, and at times--at certain times, to a limited 
extent, speak with one voice.
    The norms-based regional architecture that ASEAN has 
created remains critical to a strategy of promoting a rules-
based order that imposes some degree of normative pressure on 
countries seeking to subvert collective norms, as China has 
sought to do in unilaterally changing the status quo in the 
South China Sea.
    In my written testimony, I discuss at some length the 
reasons why the conception of the Indo-Pacific is a welcome 
shift in our geostrategic framing of the region because it 
highlights the important maritime challenges that have come to 
the fore as key priorities for the United States and our 
partners in the region, and it also highlights the increasingly 
important role that India is playing in the regional security 
order. But since my time is short, let me turn to the Trump 
administration's free and open Pacific strategy. And in 
particular, I want to point to two shortcomings in the strategy 
and the way it has been rolled out from the perspective of 
Southeast Asia.
    The first is the heavy security focus without a parallel 
economic approach. Most Southeast Asian countries welcome 
security cooperation with the United States, but they grow 
nervous about a United States that only appears engaged on the 
security front. The U.S. withdrawal from TPP sent shock waves 
across the region, and offering to replace TPP with a set of 
bilateral trade agreements premised on the notion that the 
primary goal is to erase bilateral trade deficits with the 
United States holds little appeal for countries in Southeast 
Asia.
    The second problem has been the conflation of the free and 
open Indo-Pacific with the Quad. The Quad met as a grouping for 
the first time in over a decade at the assistant secretary 
level on the sidelines of the East Asia Summit days after 
President Trump rolled out his free and open Indo-Pacific 
vision in his Da Nang APEC speech. The news media latched on to 
this development and overhyped the significance of the meeting.
    To be clear, I think that the Quad is a useful framework 
that holds long-term strategic potential and should be 
encouraged, but it will take some time before the Quad amounts 
to much in the way of substantive cooperation and strategic 
significance. It is still in its very early days. So all of the 
talk of the Quad has crowded out discussion of the role of 
Southeast Asia in a free and open Indo-Pacific and--in a free 
and open Indo-Pacific strategy.
    There has been no clear message of how Southeast Asia fits 
into this vision that has been conveyed to the region. This has 
led many to question whether the quad is the preferred 
strategic framework for the Trump administration and whether it 
will displace ASEAN unity.
    [The prepared statement of Ms. Searight follows:]
  [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Okay. Thank you, ma'am. I appreciate it.
    Dr. Pande.

 STATEMENT OF APARNA PANDE, PH.D., DIRECTOR, INITIATIVE ON THE 
      FUTURE OF INDIA AND SOUTH ASIA, THE HUDSON INSTITUTE

    Ms. Pande. Good afternoon, Mr. Chairman and Ranking 
Member----
    Mr. Yoho. Turn your mic on.
    Ms. Pande. Okay. Sorry.
    Good afternoon, Mr. Chairman, Ranking Member. I would like 
to thank you for inviting me to speak here today.
    American grand strategy for Asia and the Pacific, since the 
end of the second World War, has centered on creating an Asian 
diplomatic and security architecture that ensured stability and 
security in the region. American preeminence ensured the rules-
based order, which opposed notions of idealogical dominance or 
arbitrary assertions of territorial claims and disputes. The 
post-World War Asian security structure has rested on American 
economic and military might, combined with a network of 
partners and allies across the region.
    The economic and military rise of China over the last two 
decades poses a challenge to American preeminence. China is 
gradually creating a new Asian order with Chinese primacy at 
its heart. U.S. strategy needs to be one of renewed engagement 
with its partners and allies across the region--India, Japan, 
Southeast Asia--to construct a configuration that will be able 
to counter the Chinese march.
    Currently, China's economic and military rise faces no 
structured challenge. Japan's military role is inhibited by its 
constitution, while many in Australia and the United States 
have, for years, assumed China to be a benign power and have 
invested in an economic relationship favoring their potential 
challenger.
    Among Asian countries, India has consistently viewed 
China's expanding influence with suspicion. This is partly a 
function of historical experience. India had engaged Communist 
China as an Asian brother from 1949 to 1962, only to become 
victim of its military aggression over a border dispute. Since 
1962, India has noted China's efforts to build close ties with 
countries on India's periphery, thereby trying to possibly 
encircle India, as well as China's efforts, to lay the 
groundwork for military and naval bases throughout the Indian 
Ocean.
    With a population of more than one billion, India is also 
the country with sufficient manpower to match that of China. 
Thus, India would have to be central to any security 
architecture designed to contain China or aimed at ensuring 
that China does not transform its considerable economic clout 
into threatening military muscle in the Asia Pacific.
    India's growing economic and security relationships and 
interest in the Indo-Pacific region are aligned with its 
deepening partnership with the United States. However, India is 
different from traditional American allies, whether in Europe, 
Latin America, or Asia, for whom the United States was the key 
security provider.
    India wants to maintain its own security capabilities, does 
not wish to become a burden on the American taxpayer. It seeks 
a relationship that helps build India's resources and 
capabilities so that India can play a bigger role in the Indo-
Pacific.
    U.S. policy toward the Indo-Pacific would, therefore, 
benefit by bearing the following in mind: India would never 
want a relationship of dependence or one in which the U.S. has 
to incur all costs. Treating India as a country critical to 
U.S. interests, the United States could think about a special 
partnership with India, whereby India could be exempt from many 
of the export control regulations that govern military sales. 
Thus, India would be able to deliver military capabilities 
without adding to America's burden of cost. Any attempts to 
balance ties between India and other South Asian states should 
be abandoned to enhance India's capacity to confront China.
    On the economic front, both India and the U.S. would 
benefit if U.S. trade policies were adjusted to enable the rise 
of India as a strategic competitor to China. Any short-term 
loss in dollars and cents would be offset by the immense 
benefit to the U.S. of having a major, 1-billion strong nation 
standing by its side to ensure that China and its closed system 
do not emerge dominant in the Asia Pacific for years to come.
    Thank you.
    [The prepared statement of Ms. Pande follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you, Dr. Pande.
    Dr. Michael Swaine. Thank you.

  STATEMENT OF MICHAEL D. SWAINE, PH.D., SENIOR FELLOW, ASIA 
      PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Mr. Swaine. Thank you very much, Chairman Yoho, Ranking 
Member Sherman. It is a pleasure to be in front of your 
committee again. I am a security expert, so I will talk about 
security-related issues and the question of avoiding conflict 
in Asia.
    Right now, we are in a period of enormous transition in the 
Asia Pacific, as you know, away from a 70-year long period of 
American strategic clarity, economic strength, and military 
predominance to a much more unclear and potentially tumultuous 
period driven, above all else, by the changing power 
relationship between the United States and its major allies, 
particularly Japan, and a continually rising China.
    Although the United States remains the top maritime power 
and economic investor alongside Japan, across the region, and 
as in many ways expanding--and is in many ways expanding its 
absolute capabilities over time, it nonetheless is declining in 
relative terms compared with China. Beijing is now the major 
trader across the region, rapidly increasing its level of 
investments and deploying a formidable set of naval, air, and 
missile capabilities that clearly call into question the 
capacity of the United States and its allies to exercise 
freedom of action and prevail in a crisis or conflict along 
China's maritime periphery.
    In confronting this changing environment, Beijing and 
Washington currently hold fundamentally different notions about 
the best means of preserving stability and prosperity over the 
long term. The United States favors a continuation of American 
maritime military predominance and overall leadership. This 
includes the clear of capacity to prevail in any potential 
serious conflict with China, extending up to at least China's 
12-nautical mile territorial waters. This viewpoint is 
expressed or implied in current and past national security and 
national defense strategy documents.
    In contrast, Beijing favors, at the very least, something 
approaching a multipolar power structure or, at most, a Sino-
centric structure. Either way, China is pursuing a more secure 
and preferential environment along its maritime periphery. This 
by implication or design means that American military 
predominance is clearly under threat.
    In fact, looking forward, it is my view that far from--and 
it is far from clear that U.S. and allied military predominance 
within the first and second island chains, that is to say out 
to approximately 1,500 nautical miles from the Chinese 
mainland, can be sustained on a consistent basis over the long 
term, just as it is virtually impossible for China to establish 
its own predominance in that region due to U.S. and allied 
strengths.
    Changing relative economic capabilities, military capital 
stocks, and advances in military technologies all call such 
developments into question. And studies have been done both at 
Carnegie and by the RAND Corporation that reinforce this 
notion. In the absence of stabilizing measures, the near-
inevitable emergence of a clear level of Sino-U.S. allied 
parity in the Western Pacific will almost certainly increase 
the likelihood of crises and possibly even conflict over the 
handling of volatile issues, such as Taiwan and maritime 
disputes in the East and South China Seas.
    What is the primary danger here? The danger is that a 
rising China will overestimate its growing leverage and opt for 
various forms of pressure or coercion to greatly alarm others, 
and that the United States will overreact to such behavior in 
an effort to compensate for what is, in fact, its declining 
relative capabilities, thus threatening to make each disputed 
policy area into an unstable test of relative influence. We are 
already seeing this dynamic at work in the South China Sea and 
elsewhere.
    Given these considerations, it is my view that the best 
optimal outcome for both nations is the development of a stable 
and cooperative balance of power in the Western Pacific in 
which the most vital interests of both the U.S. and its allies 
and the Chinese are protected, and neither side enjoys the 
clear capacity to dominate the other militarily within at least 
the first island chain.
    In addition, the U.S., its allies, and China must also work 
to build a more integrated and dynamic regional economic 
network of benefit to all as a bulwark to a stable military 
balance. For the U.S., the security balance should center on 
retaining a robust yet defense-oriented U.S.-Japan alliance, 
supplemented by an expanding set of mutually verifiable 
understandings with Beijing and other Asian powers.
    Such understandings would be aimed at stabilizing the 
military balance with China at a level that both sides can live 
with. This level could be conceived as one in which each side 
possesses capabilities sufficient to deter the other from using 
force to resolve serious differences, but with each lacking the 
clear superiority that could in the eyes of the other foster 
aggressive intentions. Such a balance is most compatible with 
what is called a mutual denial strategy.
    Such understandings must also aim at diffusing and 
demilitarizing the most contentious issues in the region, from 
the Korean peninsula to Taiwan and maritime disputes. This can 
be attained most optimally in the context of a defense-based 
regional military balance.
    The goal of a more integrated and dynamic economic region 
would require the U.S., China, and other Asian economies to 
strengthen their domestic economic growth and deepen their 
commitment to free trade. Most importantly, successful, long-
term integration will depend on getting Beijing and Washington 
to join a common trade architecture. That is why we need a TPP 
so much. The Chinese eventually would probably have been 
compelled to join TPP over time.
    The creation of a stable balance of power in the Western 
Pacific will require American initiative and strength, not 
passivity and certainly not one-sided concessions. 
Conditionality, reciprocity, and a willingness and ability to 
suspend or reverse actions taken or contemplated if China fails 
to cooperate are central to this process. It will also require 
the development of domestic consensus, allied and friendly 
support, sustained U.S.-China dialogue, and interlinked changes 
in several existing regional security policies.
    Maintaining prosperity and stability in Asia and within the 
U.S.-China relationship more broadly will require new ways of 
thinking, new approaches, and some risk taking. But in my view, 
the alternatives are far less attractive.
    Thank you.
    [The prepared statement of Mr. Swaine follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Yoho. Thank you. I appreciate that and very compelling.
    And, again, I just can't overemphasize the significance of 
the Southeast Asia. We met with Admiral Harris, Harry Harris, 
back a couple months ago, and he was saying that within 50 
years, there will be more people living in that region in the 
world than outside of that region, and people want to know why 
is it important that we focus on that. I think that is a pretty 
good indicator of why. And these are things that we are very 
cognizant of.
    And I agree with all of you in that we didn't have a clear 
plan, and it hasn't been just over the last 8 years or the last 
16 years. I think we have been distracted as a Nation, and we 
need to focus where we are going to be 50 years from now or 100 
years from now, and we should have the policies in place of 
where we are going as a Nation. And that is what I see has been 
lacking in Washington, and I know the ranking member and 
myself, we have talked about this as building tools within the 
Foreign Affairs Committee, that we can use--the administration 
can use with our direction.
    The thing with TPP, when we first--when President Trump got 
in and he pulled out of that immediately, I know that ruffled a 
lot of feathers, but I think it was the right thing to do. It 
was a very decisive action, and then you have got to deal with 
the fallout. And I say it was the right thing to do, being 
decisive, number one. Number two, even candidate Clinton said 
she wasn't going to support that. We were told there wasn't the 
support here in the House. I wasn't supporting it, not that we 
get to vote on it, but it was one of those things you brought 
finality to it so now we can move on. And we have talked to a 
lot of those countries, and they talked about their distaste 
for us pulling out of that, and I fully understand that. And we 
also understand the window it opened up for China.
    Our goal is to focus on economics, trade, and national 
security. And when we talk about ASEAN, and we all know what 
ASEAN is, the 10 nations that account for 653 million people, 
$2.5 trillion worth of trade. And we know their neutrality 
rules of not interfering with other nations. We have brought up 
to the Prime Minister in ASEAN nations of why this is probably 
a good time to bring that group together, because we see what 
China is going to do. You saw what the Philippines did when 
they challenged China at the Court of Arbitration in The Hague 
and the Court ruled in the Philippines' favor, but yet China 
ignored it.
    Xi Jinping told President Obama in 2015 they would not 
militarize those islands, and so now they are militarized. They 
are landing bombers on there. And if we don't--I think one of 
you brought up if we don't stop it now, it is not going to be 
easier 3 years from now.
    We have got to come to a consensus and have that block of 
countries, not just ASEAN, we saw Canada weigh in and says 
China can't continue to claim territory that the rest of the 
world disputes. And if we don't stand up now, it is going to be 
harder and it is going to destabilize that area.
    And I think where it is all clear where Xi Jinping is going 
in the 19th party, Communist Party Congress, he said it was 
time for the--the era of China has come. No longer will China 
be made to swallow their interests around the world. It is time 
for China to take the world's center stage. I don't know about 
you, but I find that very threatening, and it is unacceptable. 
This is something, again, we as members of--with a lot of 
interest around the world, we have to stand up.
    And when I talked to the ASEAN nations and asked them why 
has it been so successful, and this is what we hear over and 
over again: American leadership, honoring of contracts, the 
rule of law. IP protection. All those things that we bring to 
the table that we know the other parties that are offering an 
alternative don't, and we have seen that over and over again. 
And, yes, they have got a very aggressive One Belt, One Road 
initiative, and that is why we introduced the BUILD Act that is 
bipartisan in the House, bipartisan in the Senate. In fact, we 
had Secretary Pompeo today talking about why this is such an 
important strategy or tool for the United States Government. 
And, again, we want to create the tools and craft the tools 
that an administration can use. And I challenged him or he 
challenged me saying that I didn't think we could compete 
dollar-for-dollar, nor do I want to with China. But he says, I 
think this tool will do that because we bring in the expertise 
and the funding of outside corporations, and we can partner up 
with other countries.
    So with that, let me get back to a question. What does the 
United States need to do operationally--to operationalize the 
free and open Indo-Pacific strategy? And what should be an 
immediate priority, and what should we consider long-term 
goals? Dr. Searight?
    Ms. Searight. Yes. I think the first priority is to more 
clearly articulate the vision, and make it more clear how 
Southeast Asia fits into it, how even the security side which 
is, you know, there has been a lot of talk about our security 
partnerships with countries like Vietnam, India and many 
others. There hasn't been a real articulation of how different 
lines of effort on the security side, economic side, et cetera, 
add up to a vision of, you know, a coherent strategy that the 
United States is really bringing to the table. So that is 
number one. I think that has been a little lackluster, although 
it is early. You know, it has only been 6 months since 
President Trump gave his speech, so there is room for other 
senior officials to lay that out.
    Secondly, I would go right to economics. And I agree with 
you, Mr. Chairman, that the BUILD Act, the proposed reforms of 
our development finance institutions would be a very welcome 
thing to pass, even though, you know, it is not large in terms 
of resources, but on the margins, it really can make a 
difference. And there is real interest, as you know, with 
countries like Japan and Australia, perhaps India, working with 
us in various ways to really promote a more responsible 
approach, high-standard approach to lending and infrastructure 
development. So forming a sort of loose coalition where we are 
all bringing our tools to the table and working with the 
private sector to help promote infrastructure development in 
the region would be very welcome. And in particular, I think 
there is a lot of potential for a U.S.-Japanese partnership on 
that.
    And finally, I would say--I have to say that I think that 
the United States should consider coming back to TPP. It was a 
real disappointment, not just because the United States decided 
not to join in, but it was--the reason why it was so shocking 
was that the countries in the region could not conceptualize 
that the United States would really walk away from an 
initiative where it had provided such leadership and such a 
clear vision for where the regional economic architecture 
should go. So if there was an alternative on the table that 
would be a similar vehicle for promoting high standards, 
rulemaking on key issues like digital trade, et cetera, if 
there was a vehicle like that, I would be fully supportive of 
that, but honestly, I don't see any alternative out there.
    And with TPP-11 launched, you have officials from Thailand 
and Indonesia taking a look, you know, talking about they want 
to come onboard at some point in time. It is still the defining 
discussion in the region on economics, and we are just not in 
the game.
    Mr. Yoho. I agree with you, and I am going to hold off on 
any other comments from you, the other two witnesses, so 
Ranking Member Sherman can weigh in.
    Mr. Sherman. Our foreign policy establishment promoted 
trade deals that have decimated America and sucked the marrow 
out of the middle of this country. Many were so destructive to 
the United States that in desperation our people reached out to 
elect Donald Trump President of the United States. And now we 
are told that we can be consistent and clear, have a clear 
vision if only we return to those policies again. The trade 
deficits don't matter. The jobs don't matter. What matters is 
staying true to the pro-Wall Street positions that have guided 
our policy in the past, and therefore, must be the true epitome 
of American patriotism.
    It is not the fault of the Midwest for voting for Donald 
Trump, it is the fault of the foreign policy establishment for 
giving us trade deals, such as those who urge<greek-l>, 
quote, deg. ``economic engagement.'' Wonderful slogan, I love 
it. And said, therefore, if we give MFN for China, our trade 
deficit will grow with China by only $1 billion per year. They 
were off. It is about a $300 billion increase. You know, I deal 
with numbers here in Washington all the time. Now they are off 
by 5 percent, they are off by 2 percent, they are off by 8 
percent. This estimate was off by 30,000 percent, because the 
people making the estimate had no care as to whether they were 
accurate.
    To turn to the people, I know it has been put forward that 
the idea of a new trade relationship with Southeast Asia has no 
appeal for Southeast Asia. I agree. If they can keep the status 
quo, they love that. The only way a new trade relationship with 
any of the areas of Asia will be appealing is if the 
alternative is a complete lack of access to the U.S. market. 
Then a fair trade relationship might start looking good. But as 
long as Asia hears from us that substantial power in Washington 
wants to continue the huge trade deficits, why should they 
agree to anything else, except maybe something that increases 
the trade deficit even more.
    But aside from trade, I have got a question for Dr. Pande, 
completely different angle. I made a statement on Sri Lanka's 
Remembrance Day to remember the tens of thousands of lives lost 
in Sri Lanka's civil war. Should we halt ties, security ties, 
with Sri Lanka until it makes progress on human rights issues, 
especially accounting for the disappeared and missing persons, 
and providing some degree of political autonomy to the Tamil 
minority?
    Ms. Pande. Ranking Member, while human rights are 
important, I understand your perspective. India did try this 
policy a decade ago, and India did try and use pressure on Sri 
Lanka and disengage slightly with Sri Lanka. The problem, China 
walked in and Hambantota, the port was built by China in Sri 
Lanka, almost 90 percent of Sri Lanka's debt is owned by China. 
So we have to have a policy which is balanced.
    Mr. Sherman. Excuse me. Usually, countries feel they have 
to pay their debt or they will be blacklisted by the western 
capital markets. If it is up to 90 percent, why don't we just 
issue a rule for the SEC that says a default on all the debt of 
Sri Lanka to China isn't a black mark against them in selling 
their debt to the west, and then China would learn not to own 
90 percent of a country's debt.
    Go on.
    Ms. Pande. So I believe it has to be balanced where you 
sort of--you remain engaged with the country, and China does 
not walk in, otherwise China is in Sri Lanka, China is in 
Maldives, China owns a large part of the debt in Bangladesh and 
Nepal. So a number of----
    Mr. Sherman. Not to mention the naval facilities in 
Pakistan.
    Ms. Pande. Yes, Pakistan.
    Mr. Sherman. I want to go on to Dr. Swaine. You have talked 
about an alliance that we have with Japan. NATO is a mutual 
defense alliance. We urge countries there to spend 2 percent of 
their GDP on their national defense. That is ridiculously low, 
since we spend 6 percent, then we lie to our people and say it 
is only 5 percent, by telling them not to notice that veterans 
are a cost of maintaining a defense capacity. But anyway, we 
settle for 2 percent. But it is a mutual defense. Every country 
has to defend the others.
    With Japan, we don't have a mutual defense. Japan has not 
been attacked in the last 50 years militarily. The United 
States was attacked on 9/11. The major NATO powers sent troops 
on the ground in Afghanistan. Japan sent none. How do we 
explain what kind of relationship we have with Japan?
    We can't call them our dependency. At the same time, it is 
not a mutual defense treaty. It is as if we are unpaid 
mercenaries? I don't know what the term would be. How do we 
turn our defense relationship with Japan into something that is 
mutual, instead of them claiming that because Douglas MacArthur 
thought that they shouldn't--they should have a clause in their 
constitution. They are responsible for their own constitution. 
It is not like there is a provision in it that said--you know, 
that they are a dependency of the United States, they can't 
change their constitution without the permission of the 
descendants of Douglas MacArthur.
    How do we get a mutual defense agreement with Japan instead 
of a one-sided one where we have to defend them, and they don't 
do anything for us, except help defend themselves?
    Mr. Swaine. Well, Representative Sherman, I am not somebody 
who believes that the U.S.-Japan alliance is an unfair 
alliance. I think the Japanese----
    Mr. Sherman. Well, we were attacked on 9/11. How many 
Japanese soldiers were put in harm's way to defend the United 
States after that attack?
    Mr. Swaine. I think you have to ask--you have to measure 
this in terms of to what degree was Japan prepared to provide 
assistance both in supporting U.S. forces in the Asia Pacific, 
which they were. Their support for U.S. forces in the Asia 
Pacific is a very vital one. It is absolutely essential.
    Mr. Sherman. They help us defend their region, but we were 
attacked by forces from Afghanistan. We died. Europe sent 
forces to Afghanistan. Japan sent none. So you have got NATO--
--
    Mr. Swaine. No combat forces.
    Mr. Sherman. No combat forces, yes, people on the ground 
risking their lives. Britain did that. France did that. Germany 
did that. And they are inadequate. So if inadequate describes 
the European contribution to mutual defense, what term do I use 
for Japan that sent zero?
    Mr. Swaine. Well, I think the term for Japan is that they 
are committed to providing for defense of their interests in 
the Western Pacific, the interests of the United States----
    Mr. Sherman. I have gone way over time, but I think you 
have capsulized it. They are dedicated to protecting their 
interests.
    Mr. Swaine. Well, it is not just their interests, though, 
Member.
    Mr. Sherman. We have an interest in them. They have an 
interest in us. They defend their interests. They don't defend 
our interests, except if our interests and their interests are 
being defended. Obviously, the world is better because Japan is 
in it, and Japan is willing to contribute to the world the 
continued existence of Japan. But when we were attacked, not a 
single Japanese soldier was put in harm's way, and yet I am 
told every day that Americans have to be ready to die by the 
tens of thousands, if necessary, to defend our allies in 
Northeast Asia, and that every day our soldiers and sailors 
have to wake up and say, I might die today for that defense. It 
is not an exactly parallel relationship.
    I yield back.
    Mr. Yoho. I appreciate your thoughts and your comments on 
that.
    Mr. Sherman. And I have been able to overcome my shyness.
    Mr. Yoho. You have. I have even seen you laugh a few times 
on the committee. That is good.
    Moving forward. You know, we have got the serious problem 
going into the 21st century. All right. Good enough. Thank you. 
Thank you for being here.
    To set a strategy for the United States of America to let 
people in the Southeast Asia, all over the world, all of our 
allies, our trading partners know that America is committed, 
you know, pulling out of TPP, I know we lost some political 
clout there, there is no doubt about that, but I am of the camp 
that it wasn't going to pass, and the best thing is pull the 
Band-Aid off quick and move on.
    What would you recommend for the ASEAN nations, for our 
Indian partners, what would be the best move forward to show 
that America is committed? We have got the military presence we 
have there. So since you have already spoke, Dr. Searight, Dr. 
Pande, if you would go.
    Ms. Pande. India is onboard with the Indo-Pacific strategy. 
I agree with Dr. Searight that maybe a little more 
clarification of the strategy would help. However, from India's 
point of view, the Indian Ocean region is its sphere of 
influence, it is its backyard, and so India will remain 
engaged. It has started to engage more with ASEAN countries: 
India and Singapore, India and Vietnam, India and Indonesia. 
Recently, India will lease a port of Indonesia, Sabang, which 
is near the Malacca Straits. India has also built a lot of 
relationships with Oman where India is going to lease port of 
Duqm. So India has started to build its relationships, but it 
will need a little more help.
    You had mentioned earlier about where the U.S. is investing 
in the BUILD Act. There is also something like the MCC, the 
Millennium Challenge, and India, the U.S., and Japan are 
cooperating in Nepal. There is an India-U.S.-Japan 
infrastructure project for South and Southeast Asia. The three 
countries will collaborate on building ports, providing energy, 
and industrial parts.
    And so while it is not going to be dollar-for-dollar 
competition with OBOR, it is going to be qualitatively much 
better, and it is going to provide a sort of another 
alternative to countries like Bangladesh, Sri Lanka, Nepal, and 
countries in the broader Indo-Pacific.
    And finally, messaging. Just as disinviting China from 
RIMPAC sent a message and Quad sends a message, I believe 
signaling and messaging at periodic intervals does play a big 
role as well.
    Thank you.
    Mr. Yoho. Thank you.
    Dr. Swaine, what are your thoughts? I know you are not 
bashful either.
    Mr. Swaine. I have a somewhat different view on all this 
from what people have been saying. I think, on the one hand, it 
is very essential for the United States to have a strategic 
plan, as you say. It is absolutely essential. But that 
strategic plan has to include both efforts to strengthen the 
position of the United States and the region and that of its 
friends and allies, and efforts to engage the Chinese in ways 
that will reassure them about the ultimate objectives of the 
United States.
    The free and open Indo-Pacific strategy, as currently 
conceived and as reflected in the National Security Strategy 
and National Defense Strategy, is not that strategy. It is a 
very clear, in my view, zero sum, highly adversarial document 
unprecedented for the United States to have ever issued with 
regard to Asia and with regard to China, and I think it will 
eventually, unless there is some engagement effort to it that 
has to do with cooperation and reassurance in both directions, 
it will end up polarizing the region. It will end up forcing 
countries in the region to make decisions about whether they 
lean more to the United States or they lean more to the 
Chinese.
    And in many respects, the Chinese position in Asia, as I 
said in my remarks, is increasingly that of they are growing in 
their level, their relative level of influence. So people will 
not easily leap to supporting the United States for this 
strategy. So it is going to have to be adjusted in ways that 
are not so focused on two diametrically opposed world views, 
the revisionist world order of China and the free and 
democratic world order of the United States and its allies, 
because that is a recipe for the Cold War.
    Mr. Yoho. Right. No, I agree with you.
    Mr. Swaine. We will end up in a Cold War.
    Mr. Yoho. Yes. We have been through that, and I don't want 
to go through that again. I remember those years.
    And I think you brought up a very good point, very salient, 
of how do you incorporate China in this? You know, what I see 
is China is being the aggressor. You know, we have seen what 
they have done, just their actions, what they are doing in 
India now with the mining. They are going to divert all the 
water and those tunnels, a 1,000 kilometer tunnel I think it 
is. And they are just marching on, marching on. We see them in 
the Western hemisphere with the $10.3 billion they lent to 
Haiti, knowing that they won't be able to pay that back. They 
will have another strategic port in our hemisphere right off 
our coast, and these are things that I think are disconcerting 
all over.
    And then you see them going after the democracies, giving 
people alternatives, the pressure they put on Hong Kong, and 
then what they are doing with Taiwan. If we don't come to terms 
with them--and, you know, what I saw the initiative coming out 
of the White House is a strong stance, like stop. And I agree 
with you that we have to get to a point where what is 
acceptable? There is plenty of room on the world stage.
    But it can't be one over the other one, and it has to be 
mutually beneficial.
    Do you guys have any thoughts how the best way to proceed 
with that, if you were to negotiate with China and India and 
the regional partners in that?
    I think I made our stance pretty clear where we stand with 
ASEAN. You know, we are here. We have done our phone ops, we 
have increased that through this committee, the recommendations 
for that, the foreign military sales. Like with Vietnam, we are 
trying to expedite some of those things. But I don't want it to 
be confrontational. And I agree, you know, we have seen enough 
war and death and destruction. And it doesn't advance us very 
much. So in the end result of all those is we always wind up 
trading, so let's just focus on the trade and what we can do 
diplomatically.
    What are your thoughts of the best way to engage China on 
this?
    Mr. Swaine. Well, I've written an entire report on this 
subject called Creating a Stable Asia.
    Mr. Yoho. Trading with what?
    Mr. Swaine. Creating a Stable Asia.
    Mr. Yoho. Okay.
    Mr. Swaine. It is a Carnegie report. It came out about 2 
years ago, and it systematically lays out some of the arguments 
that I presented in very abbreviated form here.
    I think the first step here has to be a recognition and a 
discussion within the United States about where we want to be 
in 20 or 30 years in Asia. We haven't had that discussion.
    Mr. Yoho. We haven't.
    Mr. Swaine. But that discussion cannot rest on a common 
assumption that all will be right as long as United States 
retains its dominance. In my view, that is a futile and likely 
self-destructive argument. It has limits to it.
    Mr. Yoho. I would agree with you.
    Mr. Swaine. There are people who believe that that is 
exactly what needs to be done, and so they call for a vast 
increase in U.S. defense spending, for example, all kinds of 
economic initiatives, and they don't explain how exactly we are 
supposed to acquire these resources to do all these things. $50 
billion over 10 years, which is what the Trump administration 
has said they want to increase spending, is, relatively 
speaking, a drop the bucket in Asia. And the United States is 
not going to have the resources to leap ahead.
    So what it has to do, it has to get smarter about this. It 
has to think, if it is going to establish a balance of power in 
Asia that is a genuine balance, it has to start talking about 
where you can reach certain accommodations that are mutual on 
the most hot-button issues. First and foremost is Taiwan. 
Taiwan is still a very tumultuous and very volatile issue for 
the United States and China.
    Mr. Yoho. Absolutely.
    Mr. Swaine. The Chinese right now are very concerned about 
where things are going, as is the United States. I believe 
there needs to be some kind of understanding there.
    Now, we are prohibited from talking to the Chinese about 
anything that relates to restraint on either side because of 
the Six Assurances. We have a document I am sure you are 
familiar with.
    Mr. Yoho. Sure.
    Mr. Swaine. I believe that elements of that document are 
fast becoming obsolete.
    Mr. Yoho. Right.
    Mr. Swaine. If we don't establish some kind of 
understanding with the Chinese about limits on systems and 
limits on policies and assurances about nonuse of force, the 
Chinese are, ultimately, as they grow in their increase in 
power in that local regional area and they see domestic 
developments in Taiwan moving further away from them, they're 
going to be more inclined to use coercion----
    Mr. Yoho. Right.
    Mr. Swaine [continuing]. In this situation. And we have to 
have a set of policies in place that can deal with that 
eventuality if it occurs. And that's not one of declaring 
Taiwan as a strategic bastion for the United States, which is 
what some people are now arguing. That is a recipe for war with 
the Chinese.
    Mr. Yoho. Now, that is a well-made point.
    Dr. Searight?
    Ms. Searight. Yeah, I would just add, you know, I have 
mentioned already that the region wants to manage great power 
relations. They want the United States and China to figure out 
a modus vivendi to more or less get along. They don't want to 
be drawn into a big trade war, for example, between the United 
States and China.
    At the same time, they don't want to see, you know, what is 
sometimes referred to as a G2. So they don't want to see too 
much accommodation between the United States and China that 
will circumvent their priorities. So that is why ASEAN 
centrality is so important. They don't want to see the United 
States and China go off in a corner and decide how they are 
going to manage all kinds of regional issues and who gets what 
and not have their interests, you know, be fully represented.
    So I think, you know, the United States has basically been 
doing this, but you have got to walk that line in the middle. 
You have got to stand up--you know, the United States is 
welcome in the region. It is known what the United States 
stands for, and standing up for those principles is really 
important. So showing up is really important and standing up 
for the principles that we have all been talking about, 
everything from freedom and navigation and open economics to 
democracy, rule of law, human rights, good governance. And 
there is still a lot of--even though we have seen a lot of 
democratic backsliding in the region, and that is very 
concerning----
    Mr. Yoho. Yeah.
    Ms. Searight [continuing]. There are some bright signs too. 
You know, Malaysia's election was a stunning result, and it 
shows that the people of Malaysia, you know, at a certain 
point, they pushed back and demanded accountability from their 
government, demanded anticorruption and better governance, and 
made history. And I think that affirms kind of the values that 
we have long stood for in the region, and that is a real 
opening for us to embrace.
    Mr. Yoho. Thank you.
    Dr.Pande?
    Ms. Pande. I echo Dr. Searight in some ways. One, 
consistency of American policy. The allies need to know where 
the U.S. stands on different issues, on China, what it plans to 
do, sort of the economic or military so that they can also plan 
their strategies.
    Two, India sort of feels a G2 or a movement toward the G2, 
because India would not like China to be one of the countries 
or China to be the country which is responsible for South Asia 
or Southeast Asia.
    Mr. Yoho. Right.
    Ms. Pande. And finally, allow the regional partners like 
Japan, India, Southeast Asia, to play a role in the region, to 
do what they can do with this infrastructure, trade, building 
relationships, but let them build their own relationships, 
which in the end will benefit U.S. interests long term.
    Mr. Yoho. Now, I think you all touched on the same thing. 
You know, we can't do it alone. We are at a point where we 
can't. You know, we are an aging country. We have got a lot of 
debt. We are spread out throughout the world. But we have got 
great allies, we have got great partners, and we have got the 
rule of law that I think works well for us, and that other 
people respect.
    I have spoken to a lot of the ASEAN nations, a lot of the, 
you know, different associations. And it always comes up, we 
depend on American leadership. The world depends on American 
leadership. So we have those things that we can depend on. And 
I think the biggest thing is to work out a game plan on how we 
balance that power. You know, I am hoping that period of time 
where one nation conquering another nation is a bygone in 
history, but sometimes you wonder with what is going with a 
rising China. And like I said, to be supplanted from the world 
stage as a superpower won't be tolerated by us or any other 
country.
    Let me just go back, because you guys brought up Taiwan, 
and this is something I think is a very urgent hotbed. I think 
North Korea is very urgent, very serious, but I think what is 
going on in the Asia-Pacific theater is much more than that, 
and long term.
    The Tsai administration has established the new southbound 
policy. The free part of the free and open Indo-Pacific is 
about keeping nations free from coercion. This is very relevant 
for Taiwan, which is facing increased coercion from the PRC.
    How should Taiwan be prioritizing this Indo-Pacific 
strategy, in your thoughts? And this will be the last question, 
and we will all get out of here.
    Dr. Searight, you want to go first?
    Ms. Searight. I think Taiwan is important. I think, again, 
it is a question of standing up for our principles and standing 
up for, you know, being consistent in our policy. The 
Southbound Policy by the Tsai government is one that the United 
States should find ways to support. It is a very sort of 
economic and diplomatic-focused policy, and there are a lot of 
ways, I think, that the United States can help through 
Ambassadors in the region and think tank linkages and 
everything else, to help put the Taiwanese and Southeast Asians 
together. Because there is a business relationship there. There 
is a lot of Taiwanese investment in the region, but there is 
somewhat a lack of familiarity about, you know, what Taiwan's 
diplomacy is all about, what Taiwan stands for. So I think we 
can play a supportive role there.
    But I will let Dr.Swaine address the how to deal with China 
on Taiwan issue. That is more his lane.
    Mr. Yoho. We are just going to go right down the lane here, 
then we will go to you.
    Dr.Pande.
    Ms. Pande. India's relationship with Taiwan is primarily 
economic and trade. However, India's Act East Policy in the 
last few years has increased economic relationship with 
Southeast Asia and with Japan, South Korea, and Taiwan. And so 
the Act East, the southbound Indo-Pacific, I believe, sort of 
are in some ways coming together and that will benefit the 
region. But purely Taiwan question, I will leave to Mr. Swaine.
    Mr. Yoho. Thank you.
    Dr.Swaine, the pressure is on.
    Mr. Swaine. I believe the essential, the fundamental 
elements of U.S.-Taiwan policy should be held in place. I don't 
think there is any alternative to the United States 
acknowledging that there is the statement, basically, in the 
original communique with the Chinese and then the statements 
that accompany that in the Taiwan Relations Act. And that is a 
balancing act for the United States.
    Mr. Yoho. Right.
    Mr. Swaine. You know that. I think we have to continue with 
that balancing act for the time being. I think the Taiwan 
Travel Act jeopardizes that. It has the potential for shifting 
the understanding that we have had with Beijing now for 40 
years about what is the central basis for stability in the 
Taiwan Strait.
    The Chinese have maintained a commitment to seeking a 
peaceful resolution of the issue as a priority. It is in their 
formal statements. In return for that, the United States 
pledged that it did not challenge the Chinese view that there 
is one China. That is the basis of the understanding between 
the United States and China about Taiwan. If either one of 
those two things change in an unambiguous way, there are going 
to be real problems.
    The Chinese, I believe, are concerned now that Taiwan is 
engaged in what is called soft independence. I think they are 
overly alarmed about aspects of this, but their concern really 
focuses on the change in the domestic political environment on 
Taiwan.
    The Kuomintang, the nationalist party, is in considerable 
disarray. The idea of eventual unification is becoming more 
problematic.
    Mr. Yoho. It is.
    Mr. Swaine. The Taiwan people themselves vacillate on this. 
Growing numbers have been more identified as Taiwanese, but it 
reached the kind of height during the Ma Ying-jeou period, and 
it is actually going down somewhat now.
    Chinese are very pragmatic. The Chinese on Taiwan, they 
don't want to make declarations and support moves that would be 
really dangerous for themselves. I think they want more 
diversification in their economic relationships, which is why 
Tsai Ing-wen has the policy of looking in other areas. But they 
also recognize that their relationship with the mainland is 
essential to their development. It remains essential to their 
development.
    So what do you do in this kind of circumstance? You have 
got to be able to establish some kind of understanding that 
puts a lid on the impact of escalating military capabilities in 
this area. And that means you have got to have to talk about 
what is a basis for restraint in the deployment of forces or 
the development of forces that are specifically relevant to 
Taiwan.
    It is a challenging issue because a lot of these forces are 
dual-use, and they are not just focused on Taiwan. But it is 
one where I think there needs to be more dialogue about what is 
the basis for a stable floor in terms of the military 
deployments that both sides would have that would be relevant 
to Taiwan, and then how do you reassure each side that this 
basic pact is not going to be altered fundamentally?
    Mr. Yoho. If you have time, I would like to challenge you 
on--or I don't know if it is a challenge, just question you on 
it.
    Essential to their development, the relationship Taiwan has 
with China; I see it more as essential to their survival to 
maintain that relationship. But you were talking about the----
    Mr. Swaine. I would agree with that.
    Mr. Yoho [continuing]. The U.S. and China have an agreement 
from 40 years ago. You know, hands off here, we know where we 
stand. And you said--I think you said that China was honoring 
that. Yet when you look at the coercion that China has done 
against Taiwan: Going after them in the World Health Assembly, 
getting them uninvited, going after their diplomatic ties, 
getting them uninvited, breaking those ties, going to the 
Dominican Republic and offering them $3.1 billion to have them 
break ties with Taiwan, what they have done with American 
businesses because they recognize Taiwan as a destination 
country.
    Mr. Swaine. Right.
    Mr. Yoho. And they go after them and they keep going after 
them. So I don't see them being passive in this relationship. I 
see them being very aggressive, and it is putting the squeeze 
on them.
    And so at some point, you either decide to let it be 
consumed by China--Taiwan--or you say, we are going to honor 
the agreement we had of providing them with defensive 
mechanisms. And if we don't stand up today, as we have talked 
about the South China Sea, it is going to be harder in 3 years.
    And I think this is where I think we need to implore all 
the nations in the South China Sea that enough is enough. You 
know, I would ultimately like to see them demilitarize those 
islands. Is that possible? I don't know. But I know it will be 
easier today than 5 years from now. And I think we just need 
to--who do we want to align with? And the world is going to 
have to decide. You either align with people that are going to 
follow the rule of law and honor contracts or people that are 
going to tell you I am not militarizing the South China Sea, 
yet they turn around and do it. And they have told those lies 
over and over and over and over again.
    So I think the world will have to decide that. I'm going to 
side with the good guys.
    I thank you for your time to be here. I thank you for your 
statements and your patience while we had to go vote. And, you 
know, normally members are here, but when we start late, they 
kind of scatter like--well, when you turn the light on with 
some creatures.
    Anyway, thank you, and this hearing is adjourned.
    [Whereupon, at 3:43 p.m., the subcommittee was adjourned.]

                                     
                               

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
